        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
Management of the Department's
Data Centers at Contractor Sites




DOE/IG-0803                      October 2008
                                 Department of Energy
                                      Washington, DC 2 0 5 8 5

                                      October 30, 2008

MEMORANDUM FOR            ?'HE SECRETARY
FROM:
                         Inspector Gcneral

SUBJECT:                 INFORMATION: Audit Report on "Management of Data
                         Centers at Contractor Sites"

BACKGROUND

The Department of Energy (Department) and its facility contractors maintain numerous
data centers across the complex that varies in both size and complexity. These centers,
which house data and voice hardware and software, and a variety of network equipment,
typically require specialized security, power, and cooling capabilities. Thc centers
provide common information technology (IT) services in support of the Department's
most critical functions, including scientific research and national security activities. The
cost to acquire data center space and the hardware, software and services necessary to
sustain operations are signiticant - amounting to about $33 1 million in Fiscal Year 2007.

Recent reviews by the Office of Inspector General (OIG) have identified a number of
areas in which the Department could improve the efficiency of its vast IT efforts. For
cxaniple, a series of reports revealed that significant operating savings were available by
aggregating demand for IT goods and services. A number of Federal and private sector
organizations have also realized meaningful savings by consolidating data centers,
centralizing delivery of common services, and employing more efficient network and
computing technologies. Based on these findings, we initiated this audit to determine
whether the Department had effectively managed its data centers at contractor sites.

RESULTS
-  - OF AUDIT

'The Department had not always taken advantage of opportunities to improve the
eficiency of its contractor data centers. In particular, we evaluated operations at six data
centers and concluded that:

       Despite opportunities to consolidate requirements and physical operations, the six
       sites maintained as many as 140 independent data centers. These data centers
       duplicated many of the functions or services provided by other co-located centers;

       In many instances, multiple data centers located at the same site separately
       provided common services such as email, data storage and libraries - services that
       were not unique and which appeared to readily lend themselves to consolidation;
       and,
       Four of six sites made only limited use of more efiicicnt hardware technologies
       that conserve energy and reduce operational costs.

We found that neither the National Nuclear Security Administration (NNSA) nor the
Department's program offices had required contractors to focus on reducing overall data
center costs, including those related to energy use. Specifically, officials had not
provided guidance or adequately colnmunicated best practices to contractors and field
sites regarding opportunities to consolidate data centers and improve the efficiency of IT
hardware and services. Such operating enhancements would help to ensure that taxpayer-
provided funds are used economically and efficiently.

As outlined in the body of the attached report, our audit disclosed a number of areas in
which improvements are possible. To put this in some perspective, at just the six sites
includcd in our review, we estimated that the Depart~nentcould save over $2.3 million
annually through the use of more efficient hardware technologies that enable the
consolidation of servers. Such actions would also make data centers more energy
eflicient, consistent with Departmental goals.

We noted, however, scveral signs of progress in this arena. For example, the
Department's Office of Energy Efficiency and Renewable Energy (EERE) has partnered
with industry and government agencies to improve energy efficiency in the nation's data
centers. In an effort to reduce energy consumption in the Nation's data centers by 10
percent by 201 1, EERE has developed assessment tools and providcd information and
training on data center energy efficiency to the Department, other Federal, and private
sector organizations. Lawrence Berkeley National Laboratory has also undertaken efforts
to improve the efficiency of data ccnters by designing systems to reduce energy
consumption. At Headquarters, the Office of the Chief Infortnation Officer has
consolidated common services and implemented application hosting for most program
elements and a similar initiative is being considered for Federal data centers across the
complex. Further, several Department of Energy contractor-operated sites have taken
steps to consolidate services, including e-mail. While these efforts are commendable, a
number of opportunities remain to address redundant contractor data centers and services,
and to consolidate activities. Accordingly, we have made recommendations designed to
help the Department optimize the operation of its contractor-operated data centers across
the complex.

MANAGEMENT REACTION

NNSA management concurred with our recommendations and agreed to take corrective
action. Consolidated comments provided by other Department elements indicated that
they also concurred with each of our recommendations and planned certain corrective
actions. However, management expressed disagreemcnt with several of our conclusions.
Management's commcnts are discussed in greater detail in Appendix 3.

Attachment
cc: Acting Deputy Secretary
    Administrator, National Nuclear Security Administration
    Llnder Secretary of Energy
    Under Secretary for Science
    Chief Information Officer
    Chief of Staff
REPORT ON MANAGEMENT OF THE DEPARTMENT'S DATA
CENTERS AT CONTRACTOR SITES

TABLE OF
CONTENTS


Management of Data Centers at Contractor Sites

Lletails of Finding ........................................................................................................ 1

Recommendations and Comments....................................................................................6

Management Reaction ...................................................................................................... 7


Appendices

1 . Ob.jective, Scope, and Methodology .......................................................................... 10

2. Prior Reports .............................................................................................................. 12

3. Management Comments.. ..................................................................... 14
Manaqement of Contractor Data Centers

Contractor Data    The Department of Energy (Department) had not always
Centers            taken advantage of opportunities to improve the operational
                   and energy efficiency of its data centers at contractor sites.
                   Despite opportunities to consolidate requirements and
                   physical operations, sites, and programs within sites,
                   independently maintained numerous data centers that, in
                   many respects, duplicated functions or services provided by
                   other co-located centers. In many instances, multiple data
                   centers located at the same site separately provided
                   common services such as email, data storage and libraries -
                   services that were not unique and which readily lend
                   themselves to consolidation. Sites also made only limited
                   use of more efficient hardware technologies that conserve
                   energy and reduce operational costs, practices that could
                   ultimate1y permit the consolidation of data centers.

                                           Consolidation

                   Many of the entities at the six field sites we visited
                   individually maintained data centers despite opportunities
                   to consolidate and centrally manage these operations. At
                   Argonne National Laboratory (Argonne) and Lawrence
                   Livermore National Laboratory (Livermore), for example,
                   several programs maintained their own center, with little or
                   no coordination of data center services between the
                   programs. Officials at Los Alamos National Laboratory
                   (Los Alamos) informed us that there may be as many as
                   100 unclassified data centers on the site, most of' which
                   they believed could be consolidated. In addition, we
                   identified almost 40 data centers at the other five sites we
                   visited. Annual costs to operate and maintain just 14 of
                   these data centers exceeded $1 5 million. Officials told us
                   that they did not maintain or have cognizance over costs for
                   the other 100 plus data centers because the costs were
                   either built into the overhead cost for the building or the
                   site did not individually charge for each center. It should
                   be noted that, subsequent to our review at Livermore,
                   officials told us that Liverrnore has begun to actively
                   pursue consolidating some of their institutional services
                   into their new institutional data center.

                    Many of the sites we visited had also not taken action to
                    utilize available excess data center space. Four of the data
                    centers we visited had excess space and had offered the
                    space to other organizations. However. organizations
                    within those sites chose not to take advantage of the



Page 1                                                      Details of Finding
         opportunity for consolidation and continued to maintain
         their own functionally duplicate data center. An official at
         Argonne stated that each program maintained its own
         center because funding for the data centers is individually
         received by each program. Nonetheless, the official
         observed that there may be opportunities for consolidation.

         Despite opportunities to combine services, sites operating
         multiple data centers often housed servers providing
         common services that lend themselves to consolidation.
         Many sites had consolidated enterprise, or corporate
         systems. such as payroll and other financial services within
         a single data center. However, marly of these same sites
         were still operating separate common services, such as
         email, data storage. and data libraries at various other data
         centers on site. For example, Argonne had five scientific
         data centers that ran similar data storage and libraries for
         each center, services which may be capable of being
         consolidated and housed in a single center.

                   Application Hosting and Virtualization

         Sites made only limited use of more efficient technologies,
         such as application hosting or virtualization environments.
         For example, only one site reviewed utilized an application
         hosting environment. Application hosting consists of a
         central or host organization providing full information
         technology (IT) services, including housing, securing,
         operating, and maintaining the servers or other devices for
         client organizations. This environment eliminates or
         decreases the need for each organization to individually
         operate and support its own servers, thereby reducing
         overall costs. We found that all six sites we visited made
         some use of a data center housing environment, in which
         multiple organizations individually operate and maintain
         their own servers and applications in a centralized
         environment. However, while this practice reduced the
         need for individual data centers, each organization still
         utilized its own resources to operate and maintain its
         equipment - an inefficient and at least partially duplicative
         support model.

         Additionally, only three of the sites we visited, Los
         Alamos, Lawrence Berkeley Laboratory, and Sandia
         National Laboratory (Sandia), had taken limited advantage
         of existing technologies, such as virtualization, to
         consolidate their file servers. Virtualization allows
--
Page 2                                           Details of Finding
                       multiple operating systems to run concurrently on a single
                       server, thus maximizing the use of the machine, minimizing
                       the need for multiple servers for each operating system, and
                       reducing energy consumption. At Los Alamos, even
                       though virtualization *as used only on a limited basis.
                       officials estimated that their efforts would achieve annual
                       savings of $1.6 million. These same officials noted that
                       significant underutilization of hardware existed prior to the
                       move to virtualization. They also stated that virtualization
                       is currently only being applied to business and institutional
                       services; however, they hope to expand the process in the
                       future and anticipate that they will be able to further reduce
                       the number of physical servers by 50 percent. Officials at
                       Sandia stated they had over 100 virtual machines, just a
                       partial consolidation of the site's servers, resulting in annual
                       savings of more than $700,000.

Data Center Guidance   Program officials and the National Nuclear Security
and Management         Administration (NNSA) had not required contractors to
                       focus on reducing data center costs and energy use. Also,
                       best practices and opportunities to consolidate and improve
                       the efficiency of IT hardware and services had not been
                       communicated to contractors and field sites. Sites had not
                       monitored server utilization to determine whether excess
                       capacity existed or whether efficiencies could be achieved
                       through virtualization of file servers.

                                             Program Guidance

                       Despite Federal requirements that agencies maximize the
                       value of their IT resources. NNSA and the Department's
                       program offices had not provided guidance to contractors
                       and field sites requiring them to examine opportunities for
                       more cost-effective management of their data centers.
                       Although the Department had been successful in
                       consolidating operations and reducing data center costs in
                       certain areas, officials had not taken action to require
                       contractors to minimize costs. The Department had
                       undertaken an effort to, among other things, consolidate its
                       Federal data centers and reduce the number of file servers
                       by creating a Federal application hosting environment as a
                       part of the Department Common Operating Environment
                       initiative at Headquarters. Officials from the Office of the
                       Chief Information Officer estimated that these
                       consolidation efforts would permit them to save or avoid
                       costs of about $1 5 million in just the first year. Also, both
                       Federal and certain contractor

Page 3                                                          Details of Finding
                    organizations have realized savings as a result of several
                    relatively small, independent initiatives to reduce the
                    number of servers through virtualization. Despite these
                    successes, these best practices had not been comn~unicated
                    to contractors at Geld sites nor had the program offices
                    directed thein to determine whether they could achieve
                    similar cost efficiencies through data center and file server
                    consolidations.

                    Site officials we spoke with identified several reasons for
                    not pursuing data center consolidation. Specifically, some
                    sites indicated that their data centers had power and cooling
                    problems. so they did not want to consolidate operations
                    and possibly aggravate the situation. However, the use of
                    more efficient information technologies, such as
                    virtualization, can significantly reduce the number of
                    servers necessary to run applications, resulting in
                    corresponding savings in power and cooling. Some sites
                    indicated that their funding was constrained and without
                    specific direction, they wanted others to take the lead on
                    using innovative approaches, such as virtualization.
                    However, virtualization and application hosting are proven
                    technologies that, as demonstrated by both Federal and
                    private sector experience, result in near term savings.

                                   Monitoring Server Utilization

                    Most of the sites we reviewed were not aware or were
                    unable to quantify the benefits, including cost and energy
                    savings. available from virtualization because they did not
                    monitor server utilization. Even though they did not
                    specifically monitor use of most systems, officials at lies
                    Alamos told us that they believed that server hardware is
                    underutilized, resulting in higher costs for data center
                    maintenance and administration. Only one of the six sites
                    visited, Livermore, monitored its server utilization at one of
                    its data centers to ensure that excess capacity was not being
                    acquired and existing computer resources were being
                    maximized.

Opportunities for   Consolidation of data centers through practices such as
Savings             application hosting, virtualization and consolidation of
                    conimon services could permit the Department's
                    contractors to realize significant savings and achieve
                    meaningful reductions in energy consumption.




Page 4                                                      Details of Finding
                                                               Minimizing Costs

                                     Without improvements in Department guidance and
                                     contractor monitoring of server utilization, contractors and
                                     field sitcs will continue to spend more than necessary on
                                     data center operations. Specifically, sites reported they had
                                     2,433 enterprise servers' at five of the six sites we visited,
                                     many of which could be candidates for consolidation or
                                     virtualization. I wo field sites reported they were able to
                                     eliminate, on average, 60 percent of the servers they
                                     targeted for virtualization. For example, the Pacific
                                     Northwest National Laboratory (PNNL) reported that it
                                     realized savings of approximately $1 75,000 by
                                     consolidating only 113 servers. By extrapolating the
                                     savings that PNNL realized, which were the most
                                     conservative reported by various sites we polled. the
                                     Department may be able to realize savings of
                                     approximately $2.3 million just through virtualization and
                                     consolidation of servers at just five of the six sites we
                                     visited.

                                     Experience by Departmental organizations and results
                                     observed in industry also indicate that the projected savings
                                     by utilizing more efficient server technology are likely
                                     achievable. For example, Department organizations from
                                     which we obtained data indicated that their limited ef'rorts
                                     in this area have already resulted in $1 million in savings
                                     gained through consolidation efforts. A recent study on
                                     return on investments, conducted in July 2006 by industry
                                     experts, similarly reported that the Department saved over
                                     $2.3 million by performing very 1imited virtualization of
                                     servers at just eight sites. These savings result from lower
                                     costs to acquire and maintain hardware, as many
                                     applications, common services andlor operating systems
                                     can run on the same server. Industry officials noted that
                                     virtuali~ationtypically reduces a system administrator's
                                     workload by 60 to 90 percent.

                                           Consolidation and Reduced Energy Consumption

                                     While investment in server and data center consolidation
                                     may initially exceed normal operating costs, industry
                                     experts and contractor officials with successful
                                     consolidation experience agree that the payback period is

' An enterprise server is defined as a computer system which perfornis an essential service for the
organization, such as file servers, email servers, print servers, and web servers. It does not include research
and development and other scientific computers.
                                                                     -
Page 5                                                                               Details of Finding
                  generally short and return on overall investment is
                  substantial. Reductions in data center space can. in many
                  instances, result in corresponding decreases in data center
                  lease and maintenance costs, which are typically 10 to 100
                  percent more expensive than normal office space. For
                  example. the Defense Contract Management Agency
                  recently consolidated 18 data centers into 2 through a
                  virtualization process, reportedly saving the organization
                  hundreds of thousands of dollars a year.

                  Additional savings can also bc achieved through reduced
                  energy consumption through server and data center
                  consolidation. For example, an August 2007 study by the
                  Environmental Protection Agency, relying on data provided
                  by Hewlett Packard, determined that data center managers
                  could cut energy consumption by as much as 40 percent if
                  they adopted the most efficient technologies available. The
                  study concluded that the government could save over $959
                  million in five years just in reduced energy costs by
                  adopting technologies to consolidate servers and enhance
                  their ei'ficiency. Reducing energy consumption through
                  server and data center consolidation will also help achieve
                  the President's Order calling for executive agencies to
                  improve energy efficiencies and reduce carbon emissions
                  by three percent annually.

RECOMMENDATIONS   To help improve the efficiency of contractor-operated data
                  centers. we recommend that thc Administrator, NNSA, and
                  the Under Secretaries of Energy and for Science. in
                  coordination with the Department and KNSA's Chief
                  Information Officers:

                      1. Share best practices and provide guidance and
                         direction regarding data center consolidation
                         through application hosting and server
                         consolidation;

                  We further recommend that the Administrator, NNSA, and
                  the Under Secretaries of Energy and for Science:

                     2. Require contractors and field sites to actively
                        monitor server utilization and take action to more
                        fully utilize existing servcr capacity: and,




Page 6                               Recommendations and Comments
                3. Require contractors and field sites to consolidate
                   servers, data ccnters, and common services, where
                   appropriate.

MANAGEMENT   NNSA management concurred with our rccomrnendations
REACTION     and noted that after considering any unique mission needs
             and best business practices, they will provide best practice
             information, guidance, or direction related to consolidation;
             monitor utilization; and encourage the appropriate
             consolidation of services. Department management
             generally concurred with the recommendations in the report
             and indicated that it supports the report's goal of improving
             data center efficiency and reducing the impact on the
             environment. l'he Department indicatcd that it planned to
             continue to share best practices through existing forums
             and would publish additional guidance if necessary, hut
             contemplated no additional action at this time. Although it
             did not detail specific actions to be taken, management
             indicated that it would take steps to require laboratories and
             sites to monitor and more fully utilize existing servers, and
             where appropriate, consolidate servers, data centers and
             common services.

             Department management, however, questioned the
             accuracy of some portions of the rcport. While
             management agreed there will be cost savings from data
             center consolidation opportunities, they felt the savings
             would be significantly less than those stated in the report.
             They believed the calculation used in the report includes
             servers that do not easily lend themselves to virtualization.
             They also believed the calculation included estimated
             savings from early stage virtualization efforts, where
             advantage can be taken of the systems easiest to virtuali~e
             and may not be representative of virtualization savings at
             later stages of the effort.

             Department management also noted that multiple services
             at a certain site can not always be consolidated. They
             stated that providing a few systems with the same services
             may be more appropriate, in some cases, because of user
             needs and efficiency. In addition, rnanagcment believed
             the report advocates consolidating all servers and scientific
             computing into one physical location. Thej stated that this
             scenario is not always cost-effective, there are continuity of
             operation issues involved mi th such consolidations, and
             physical security requirements must be considered.


                                                                ------
Page 7                           Recommendations and Comments
AUDITOR    NNSA management concurred with our recommendations
COMMENTS   and agreed to take corrective actions that are responsive to
           our recomn~endations.

           While other Department elements concurred nith each of
           the recommendations, action proposed to address
           reconlnlendation one was not fully responsive. In
           particular, management planned to take no additional action
           to share best practices and provide guidance and direction
           regarding data center consolidation. As noted in our report,
           action beyond that currently being taken by program
           officials is necessary to ensure that contractors focus on
           reducing data center costs and energy use. While
           management indicated that it would take action to address
           recommendations two and three, it did not provide specifics
           as to how the corrective actions would be accomplished.

           Based on management's comments on our draft report, we
           asked field sites to correct and provide updated information
           regarding servers. This new data specifically excluded
           research and development and other scientific servers.
           Based on this data, we re-calculated the savings available
           from server virtualization alone and believe that they could
           amount to as much as $2.3 million per year. These
           potential savings are. in our opinion, very conservative in
           that they only include savings available through
           virtualization at five of the Department's sites and do not
           include other savings typically available through
           consolidation. Specifically. cost efficiencies related to data
           center consolidation and reduced lease and maintenance,
           labor, and energy costs were not included in the pro-jected
           savings.

           Both PNNL and Los Alamos reported that they expect to be
           able to eliminate 60 percent of the total servers at their
           respective sites through virtualization. PNNL and other
           laboratories' savings were determined from early stage
           virtualization. For that reason, we used the most
           conservative of all pro-jected savings (reported savings
           ranged from $1,550 to $8,000 per server) in our projected
           savings calculation.

           Contrary to management's conlments, we do not believe
           that one all-purpose system is always the most efficient and
           that there are instances where consolidation may not be
           appropriate. Because of continuity of operations issues, we
           do not advocate consolidating all servers and scientific

                  -
Page 8                                                    Comments
         computing into one physical location. except where
         appropriate. As we noted in the Methodology section of
         this report, we also recognized that there are data centers
         and servers that can not bc consolidated or moved from
         their current location for legitimate business and scientific
         purposes or security considerations. Nonetheless, we
         observed numerous opportunities for consolidating
         duplicative services, such as file serbers, email, data
         storage, and data libraries, services that can. and have been,
         consolidated at some Department sites.




Page 9                                                  Comments
Appendix I

OBJECTIVE         To determine whether the Dcpartment of Energy (Department)
                  had effectively managed its data center and application hosting
                  environments at contractor sties.

SCOPE             The audit was performed between Septembcr 2006 and
                  December 2007 at Departmental Headquarters in Washington,
                  DC, and Germantown, MD, Argonne National Laboratory in
                  Argonne, IL; Fermi National Accelerator Laboratory in
                  Batavia, IL; Lawrence Berkeley Laboratory in Berkeley, CA;
                  Lawrence Livermore National Laboratory in Livermore, CA;
                  Sandia National Laboratory in Albuquerque, IVM; and Los
                  Alanlos National Laboratory in Los Alamos, NM. We also
                  obtained information from Pacific Northwest National
                  Laboratory (PNNL) in Richland, WA.

                  For our review. we defined a data center as a room or facility
                  used to house computer systems and associated components
                  that required special environmental controls, such as extra
                  power and cooling. We did not include rooms and servers that
                  could not be removed from thcir current location for legitimate
                  business and scientific purposes. We also did not include
                  supercomputer rooms, as those do not readily lend themselves
                  to consolidation.

METHODOLOGY       To accomplish our objective, we:

                         Reviewed applicable laws and directives pertaining to
                         information technology management, including the
                         Clinger-Cohen Act of 1996 and DOE Order 200.1 ;

                         Revicwed applicable standards and requirements issued
                         by the National Institute of Standards and Technology;

                         Inquired about any data center or application hosting
                         guidance and practices throughout the organization;

                         Held discussions with field site officials and officials
                         from various Dcpartmental offices; and,

                         Reviewed reports by the Office of Inspector General
                         and the General Accounting Office.

                  'To calculate potential savings that could be achieved by
                  virtualization of servers. we first examined the savings reported




              -
              -
Page 10                                Objective, Scope, and Methodology
Appendix I (continued)

                    by four Department entities that had eliminated servers through
                    virtualization. The savings identified ranged fi-om
                    approximately $1,550 to $8,000 per server. We chose to use as
                    our base the most conservative savings, which were reported
                    by PNNL. PNNL reported overall savings of $175,000 by
                    consolidating 136 servers onto 23 physical hosts, thus saving
                    approximately $1,550 per server eliminated. Two field sites
                    reported they were able to eliminate, on average. 60 percent of
                    the servers through virtualization. Therefore, we calculated our
                    savings by first multiplying the 2,433 enterprise servers
                    reported by five of the six sites we visited by 60 percent.
                    These server counts did not include research and development
                    and other scientific computers. The resulting number of 1,460
                    servers represents the number of enterprise servers that can
                    potentially be eliminated through virtualization at the 5 sites.
                    Next, we multiplied the 1,460 servers that could be eliminated
                    by $1,550 and determined that the Department could achieve
                    savings of approximately $2.3 million at just 5 of the 6 sites we
                    reviewed.

                    The evaluation was conducted in accordance with generally
                    accepted Government auditing standards for performance
                    audits and included tests of internal controls and compliance
                    with laws and regulations to the extent necessary to satisfy our
                    objective. Accordingly, we assessed internal controls
                    regarding data centers and application hosting environments.
                    Because our review was limited. it would not necessarily have
                    disclosed all internal control deficiencies that may have existed
                    at the time ofour evaluation. We also evaluated the
                    Department's implementation of the Government Perjbrmrrnce
                    and Reszalts Act and determined that it had not established
                    performance measures for data centers and applications hosting
                    environments. We relied on computer processed data and
                    validated that data to the extent necessary to satisfy our audit
                    objective.

                    An exit conference was held with Department officials on
                    October 28, 2008.




          -              --
Page 11                                   Objective, Scope, and Methodology
Appendix 2

                                    PRIOR REI'OR'TS

Office of Inspector General Reports

      ,Ypec*iulReporl on i24anugemcnt C'h~llleng~s  at the Department of'Energy (DOEIIG-
      0782, December 2007). This annual special report detaiIs the Office of Inspector
      General's (OIG) overall concerns. The management challe~lgesidentified in this report
      include contract management. cyber security, environmental cleanup, human capital
      management. pro-ject management, safeguards and security, and stockpile stewardship.
      In addition, the OIG identified a watch list of areas that are of a concern but do not
      amount to a management challenge. The watch list items are infrastructure
      modernization and worker and comn~unitysafety. Furthermore, the OIG identified a
      national trend concerning energy consumption.

      I~ircili~yC'on~ru~~torA~'q~i.sition~~ndM~~n~~g~mentqf'Inji)rrn~~tionTechnologvHurd141rrre
      (DOEIIG-0768, June 2007). Over the past three years, the Department of Energy
      (Department) has spent over $400 million on information technology (IT) hardware;
      however. problems have been noted in its ability to effectively manage its acquisition
      and control of IT hardware. The audit noted that five of seven sites reviewed had not
      developed or fully implemented hardware specifications and brand standards for
      computers and related peripherals, causing at least $4.7 rnillion in unnecessary
      expenditures over the three-year pcriod. The report concluded that the Department
      could potentially realize savings of about $1 6.6 million over five years at the sites
      reviewed by bettcr controlling hardware costs and implementing standards for ccrtain
      equipment

      The Depurtmentl.s Effort., to Implement C'ornmon Infbrmdion Te~.hnologyServices at
      Jleudqu~rrter-s(DOEIlG-0763, March 2007). The OIG found that although some
      progress had been made at Headquarters, five major organizations, accounting for 40
      percent of the total potential user population, were not migrated to the common
      operating environment within the first year as planned. thus preventing the realilation
      of the full $1 5 million in expected first year cost savings. The OIG recommended that
      completion of Headquarters' migration to the Department Common Operating
      Environment be accomplished prior to implementation at field sites. Additionally,
      formalization of migration plans, requirements analyses, and cost-benefit analyses
      should be accomplished.

      IMfi,rrntr!ion Technology Supporl Services at lhe Deprrrtm~nt'sOperuling Contracto~r.
      (DOEIIG-0725, April 2006). The Department continues to face a number of challenges
      related to contractor procured or furnished IT support services, including contractors
      that did not aggregate demand to leverage or reduce costs; per user costs that varied
      substantially between sites; costs for co-located contractors that varied by as much as
      50 percent per user; and many contractors that did not actively capture or track costs in
      a manner that facilitated Federal oversight. This occurred because the Department had




Page 12                                                                       Prior Reports
Appendix 2 (continued)

     not established a corporate-wide approach to providing and managing IT support
     services that included contractor-managed sites. In addition, Federal officials charged
     with monitoring contractor performance did not always employ contracting incentives
     to help reduce costs. As a result, there is the potential for significant cost savings at
     contractor-managed sites. For example, we identified the potential for reducing IT
     support costs by ovcr $1 4 million for just the contractor-managed sites co-located at the
     Hanford complex.

     Mun~lgctnenfo f f h e De~mrfment'.s Desktop C bmputer LC;ojtwureEnterprise License
     Agreernerzls (DOEIIG-07 18, January 2006). This audit was conducted to determine
     whether the Department was effectively managing the acquisition and maintenance of
     desktop software across the agency. Seven of sixteen organizations reviewed were
     found to have acquired software through locally established agreements or contracts at
     prices that were as much as 300 percent higher than those available through the
     Department-level agreements. Although significant savings were pocsible, enterprise-
     wide agreements for conlnlon tools such as security and anti-virus software had not
     been established. Additionally, various locations and organizations acquired 14,000
     encryption software licenses, paid the required annual maintenance fees for a number of
     years: however, never used the licenses.




Page 13                                                                       Prior Reports
Appendix 3




                                    Department of Energy
                             Natlonal Nuclear Security Adrnlnlrtration
                                      Washington. DC 20585
                                       JUL 2 2 2008
          MEMORANDUM FOR                 Rickey R. Hass
                                         Assistant Inspector General
                                           for Environment. Scimce. and Cornorate Audits

          FROM:                          Mictuel c. - e c j C & - -
                                         Associate Adrninistrato
                                           for Management and 'Administration

          SUBJECT:                       Comments to Draft Report on Management of Data
                                         Centers; A06TG038; DRMS No. 2006-29792


          The National Nuclear Security Administration (NNSA) appreciates the
          oppormnity to review the Inspector General's (IG) draft report. "Management of
          Data Caters at Contractor Sites." We understand that, based on the potential to
          reduce costs, the IG initiated this audit to determine whether the
          DepartmmtfNNSA is effectively managing its data centers at its contractor sites.

          We acknowledge the fact that we have not always taken advantage of
          opportunities to improve operational efficiencies. Based on your work. NNSA
          acknowledges the need for the recommendations contained in the draR report.
          Afta considering any unique mission needs and b a t business practices, NNSA
          will provide best practice information, guidance, or direction related to
          consolidation; monitor utilization; and, encourage the appropriate consolidation of
          services.

          It is important to note that the reference to Lawrence Livcrmore having programs
          maintain their own centers with little or no coordination of data center services is
          not completely accurate. Ovcr the past year, Lawrence Livermore has built and
          moved into a new institutional business data center and now has the capacity to
          co-locate more of its institutional applications. There arc discussions with
          program entities (National Ignition Facility and the National Atmospheric Release
          Advisoq Cmter, to name two) to explore opportunities to move assets to the new
          data center. Since the data center has only mently opened, not all of the
          ovahead funded servers have been co-located and consolidated. The second half
          of the data center requires increased cooling capacity which is planned for Fiscal
          Year 2009. Lawrence Livumore will consider, at that time, the movement of
          some of the unclassified servas and will consider more consolidation. With any
          consoIidation, prograinmatic need-to-know considerations are driving factors in
          whether scrvas may be consolidated with other servers. Lawrence Livermore is




Page 14                                                                            Management Comments
Appendix 3 (continued)




          actively pursuing consolidation; therefore the comment that there is little or no
          coordination of data center services between programs is not accurate.

          Should you have any questions about this response, please contact Richard
          Speidel, Director. Policy and Internal Controls Manapment.

          cc:    Linda Wilbanks, Chief Information Officer
                 Camille Yuan Soo-Hoo, Manager, Livermore Site Ofice
                 David Boyd, Senior Procurement Executive
                 Karen Boardman, Director, Service Center




Page 15                                                                        Management Comments
Appendix 3 (continued)




                                        Department of Energy
                                            Washington, DC 20585




                                               August 1,2008


          MEMORANDUM FOR RICKEY R. HASS
                                    ASSISTANT INSPECTOR GENERAL
                                     FOR ENVIROMNT, SCIENCE,
                                     AND CORPORATE AUDITS
                                                   .
                                    OFFICE OF RJSPECTOR GENERAL
                                                         n
          FROM:



          SUBJECT:                  Response to Inspector General (IG) Draft Report,
                                    "Management of Data C e n t e ~
                                                                  at~Contmtor Sites"


          Thank you for the opportunity to review and comment on the draft report, "Management
          of Data Cmtcn at Contractor Sites." The followina is a DeDartmenta) consolidated
          response, which considers comments h m the office of the-chief Information Officer
          (OCIO), the Under Secretary of Energy, and the Office of Science (SC).

          DOE strongly supports the goal of the IG to improve data center efficiency and reduce
          the impact on the environment. However, DOE believes this report misrepresents the
          potential cost savings, the management approaches, and the day to day operations of
          DOE laboratory and site systems. It may not be appropriate to simply apply models from
          industries that are not involved in scientific research and engineering to the DOE
          laboratories and sites.

          The statement that "Without improvements in Department guidance and contractor
          monitoring of server utilization, contractors and field sites will continue to spend more
          than necessary on data center operations." may not be entirely accurate. The laboratories
          and sites are always looking for ways to minimize costs, such as those related to data
          center operations, so that they can maximize the funding available to perform their
          mission work for W E .

          There will be cost savings h m some opportunities for further data center consolidation
          and server virtualization and the labdsites are aggressively pursuing these savings.
          However the cost savings will be significantly less than stated.




Page 16                                                                           Management Comments
Appendix 3 (continued)




          The projected wst savings in the report is calculated as follows: $7.3 M = 0.6
          (elimination efficiency) X 7,835 (estimated number of servers to be consolidated) 1 1 13
          (number of servers at PNNL used in the example) X $175K (ilaimed savings for PNNL).

          The issue for the above calculation is the 7,835 servers as being indicative for the four
          labs referenced. PNNL would only have 300-400 as their total base number of servers
          that would likely benefit from virtualization. The only way to get to 7,835 servers for
          four labs is to have included scientificservers. Running virtualization software for
          business process servers such as ernail, calendaring, payroll, web servers, etc. is usually
          very effective. Running vittualization software on scientific and engineering applications
          in most cases will actually lower the performance of the server as measured by scientific
          or engineering output. Consequently, the 7,835 estimate is probably wrong by a factor of
          5 to 10 and the real cost savings is a factor of 5 to 10 less than estimated.

          The cost savings estimates b m PNNL and other laboratories were determined from
          relatively early stages virtualization efforts where advantage can be taken of the systems
          easiest to virtualize. It may be more appropriate to ust a methodology that recognizes
          this factor with a virtualization maturity model.

          At multiple times, the report implies that because there are multiple instances of certain
          services at a single laboratory, then are necessarily consolidation opportunities. This is
          not necessarily always true. The laboratories and sites, with the exceptions of some
          limited administrative systems, are not comparable to large corporations or government
          agencies. It is not always the case that providing one all-purpose system is actually more
          efficient than providing a few limited purpose systcms because the need to provide all
          possible features and platforms actually trades off with efficiency.

          This report may be misleading in how it defines a "data center." It appears to be claiming
          tbat consolidating all servers and scientific computing in one physical place is clearly the
          most cost effective. The laboratories and sites attempt to consolidate data centers
          whenever possible. In many cases the up-front costs of space, fiber network distribution,
          power distribution and cooling systems are tbe driving factors rather than the costs of
          computing and networking systems thcmsclvcs. To be cost effective, this situation must
          be analyzed location by location so that advantages can be taken for site specific
          resources and mission requirements. Most laboratories and sites run several physical
          locations as a v i d data center or centers as this sometimes provides the most cost
          effective operational solution when all costs are included. In addition, continuity of
          o p t i o n s considerations usually require at least two or more physical locations be used.

          The physical security requirements for providing appropriate cyber security must also be
          taken into consideration. Specifically, the physical locations and separationsrequired to
          meet certain cyber security requirements must be taken into account in any concept of
          data center consolidation.




Page 17                                                                         Management Comments
Appendix 3 (continued)




          Recommendation 1: To help improve the efficiency of contractor-operated data centers,
          share best practices and provide guidance and direction regarding data center
          consolidation through application hosting and server consolidation.

          Management Response:

          DOE concurs with sharing best practices and providing guidance and direction regarding
          data center consolidation through application hosting and server consolidation.

          On sharing best practices, the DOE National Laboratories CIOs (NLCIO) meet three or
          four times a year and Energy, National Nuclear Security Administration, SC, and DOE
          OCIO staffs are frequently present. Roughly half of the meeting time is devoted to
          sharing IT best practices. Data center consolidation and server virtualization projects
          have been subjects of this lT best practices sharing multiple times over the past several
          years.

          DOE already performs numerous reviews on achieving mission program goals and
          laboratory and site operating efficiencies which includes the IT programs and activities at
          the laboratories and sites. As warranted by the results of these reviews in the IT area,
          DOE will provide appropriate guidance and direction regarding data center consolidation
          through application hosting and server consolidation.



          The existing NLCIO, W E program offices and OCIO meetings are already providing a
          forum for sharing best practices for data center consolidation and deployment of server
          virtualization technologies.

          Estimated Completion Date:

          Completed. No new action is required at this time, but guidance and direction will be
          issued as needed per the discussion above.

          Recommendation 2: Require contractors and field sites to actively monitor server
          utilization and take action to more hlly utilize existing server capacity.

          Management Response:

          DOE concurs with this recommendation and will verify that the laboratories and sites are
          appropriately consolidating data centers and deploying server virtualization technologies
          including its utilization that optimize the cost eEciencies in this area for achieving their
          DOE mission.




Page 18                                                                        Management Comments
Appendix 3 (continued)




          Action Plan:

          DOE will have all of its laboratories and sites validate they are optimizing the
          consolidation of their data centers and deployment of s m e r virtualhation technologies
          including utilization monitoring.

          Estimated Completion Date:

          All DOE laboratoricr and sites will p v i & the validation by no later than
          M m h 31,2009, to thcu responsible DOE ficld/sitc office.
          Rtcommendation 3: Require contractors and field sites to consolidate savers, data
          centers, and common services, whm appropriaic.

          Management Response:

          DOE concurs with this recommendation and will verify that the laboratories and sites arc
          appropriately consolidating data centers and deploy&server virtualization technologies
          including its utilization that optimize the cost efficiencies in this area for achieving their
          DOE mission.
          Action Plan:

          W E will have all of its Laboratories and sites validak they are optimizing the
          consolidstion of their data centers and deployment of scrver virtuollization technologics
          including utilization monitoring.

          -ted        Completion D.b: All DOE laboratoriesand sites will provide the validation
          by no later than March 3 1,2009, to their mponsible DOE field/sitc office.

          Ifyou have any questions related to this response,please contact Devon Streit at 202-
          586-9129.




Page 19                                                                              Management Comments
                                                             IG Report No. DOEIIG-0803

                       CUSTOMER RESPONSE FORM

The Office of lnspector Gencral has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form. you may suggest improvements to enhance thc effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of lnspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form. you may telefax it to the Office of lnspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-I)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
lnspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
 and cost effective as possible. Therefore, this report will be available electronically through the
                                 Internet at the following address:

               I1.S. Department of Energy Office of Inspector General Home Page
                                    htlp://~ww.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
